COMMODITY FUTURES TRADING COMMISSION

   SEMIANNUAL REPORT
         OF THE


  OFFICE OF THE
INSPECTOR GENERAL




     FOR THE PERIOD ENDING MARCH 31, 2008
                            U.S. COMMODITY FUTURES TRADING COMMISSION
                                                 Three Lafayette Centre
                                      115521 st Street, NW, Washington, DC 20581
                                              Telephone: (202) 418-5110
                                               Facsimile: (202) 418-5522
                                                      www.cftc.gov


   Office of the                                 May 30,2008
Inspector General




      TO:            Walter L. Lukken
                     Acting Chainnan

      FROM:          A. Roy Lavik
                     Inspector General
                                        Q tZ ~
      SUBJECT:       Semiannual Report of the Office of the Inspector General

              Attached is the Semiannual Report of the Office of the Inspector General for the period
     . from October 1, 2007 through March 31,2008. This report is submitted to you in accordance
       with the requirements of Section 5 of thelnspector General Act of 1978, as amended.

              I appreciate your continuing support of this office.

      Attachment
              OFFICE OF THE INSPECTOR GENERAL
           COMMODITY FUTURES TRADING COMMISSION
                               SEMIANNUAL REPORT
                              FOR THE PERIOD FROM
                      October 1, 2007 THROUGH March 31, 2008

                              TABLE OF CONTENTS

SUMMARY OF OIG ACTIVITIES [including a description of significant problems, abuses,
    and deficiencies and a description of OIG recommendations for corrective action
    (Mandated by Section 5(a)(1) and (2) of the Act)]                                             1
    AUDITS and REVIEWS                                                                            1
    INVESTIGATIONS                                                                                3
    LEGISLATIVE AND REGULATORY REVIEWS                                                            3

OIG RESPONSIBILITIES                              ~                                           ;   3

OIG RESOURCES                                                                                     4

CFTC PROGRAMS AND OPERATIONS                                                                      4

COMPLETED WORK                                                                                    5
    AUDITS and REVIEWS [including a list of each audit report issued and a summary of
    each particularly significant report (Mandated by Section 5(a)(6) and (7) of the Act)]        5
    INVESTIGATIONS                                                                                8
    LEGISLATIVE AND REGULATORY REVIEWS                                                            8

AUDIT REPORTS OVER SIX MONTHS OLD                                                                 9

       CORRECTIVE ACTION NOT COMPLETED [including an identification of each
       significant recommendation described in previous semiannual reports on which
       corrective action has not been completed (Mandated by Section 5(a)(3) of the Act)] ........9

       CORRECTIVE ACTION COMPLETED                                                                9

      MANAGEMENT DECISION NOT MADE [including a summary of each audit
      report issued before the commencement of the reporting period for which no management
      decision has been made by the end of the reporting period (including
      the date and title of each such report), an explanation of the reasons such a
      management decision has not been made, and statement concerning the desired timetable
      for achieving a management decision on each such report (Mandated by Section 5(a)(lO)
      of the Act)]                                                                    ~    9
SUMMARY OF MATTERS REFERRED TO PROSECUTIVE AUTHORITIES and
    the prosecutions and convictions which have resulted (Mandated by
    Section 5(a)(4) of the Act)                                                    9

SUMMARY OF EACH REPORT MADE TO THE AGENCY HEAD
    under Section 6(b)(2) concerning information or assistance unreasonably
    refused or not provided (Mandated by Section 5(a)(5) ofthe Act)                9

REVISED MANAGEMENT DECISIONS [including description and explanation of
     the reasons for any significant revised management decision made during the
     reporting period (Mandated by Section 5(a)(11) ofthe Act)]                    10

INSPECTOR GENERAL DISAGREEMENT [including information concerning any
     significant management decision with which the Inspector General is in
     disagreement (Mandated by Section 5(a)(12) of the Act)]                       10

CURRENT AUDITS                                                                     10

GAO LIAISON                                                                        12

STRATEGIC PLAN                                                                     13

CONTACTING THE OFFICE OF THE INSPECTOR GENERAL.                                    17

TABLE 1 -- REPORTS ISSUED WITH QUESTIONED COSTS
     (Mandated by Section 5(a)(8) of the Act)                                      18

TABLE 2 -- REPORTS ISSUED WITH RECOMMENDATIONS THAT FUNDS BE PUT
     TO BETTER USE (Mandated by Section 5(a)(9) of the Act)                        19




                                             11
                           INDEX OF IG ACT REPORTING
                                 REQUIREMENTS

Section 4(a)(2)                 Review oflegislationand regulations                                     8

Section 5(a)(1)                 Significant problems, abuses, and deficiencies                          1

Section 5(a)(2)                 Recommendations with respect to significant problems                    1

Section 5(a)(3)                 Significant recommendations that have not been completed                9

Section 5(a)(4)                 Matters referred to prosecutorial authorities                           9

Section 5(a)(5)                 Summary of instances where infonnation was refused                      9

Section 5(a)(6)                 Completed audit reports.:                                               5

Section 5(a)(7)                 Significant audit reports                                               5

Section 5(a)(8)                 Statistical Table-Questioned Costs                                     18

Section 5(a)(9)                Statistical Table-Funds Recommended for Better Use                      19

Section 5(a)(10)                Audit reports lacking management decision                             7, 9

Section 5(a)(1l)              Significant revised management decisions                                 10

Section 5(a)(12)              Significant management decisions where the IG disagrees                  10

Section 5(a)(13)                      Information described under the Federal Financial Management.     ..
                   .................. In1provement Act of 1996                                          5




                                                   111
                        SUMMARY OF OIG ACTIVITIES

AUDITS and REVIEWS

         The primary objectives of the Office ofthe Inspector General (OIG) of the Commodity
Futures Trading Commission (Cormnission, Agency, CFTC) are to help promote long-term
efficiency and effectiveness in the administration and operation of the Commission and to
protect against fraud, waste, and abuse. The OIG pursues these objectives through the
completion of audits, reviews, and other projects. This reporting period's OIG audit and review
activities, which are listed below, reflect these objectives. During this reporting period, the OIG
audits resulted in recommendations, and a review reiterated one earlier recommendation.

Current Audits

        The following are the audits being conducted during the current reporting period and
continuing into the next reporting period. (For additional details, see the section on current
audits beginning on page 10.)

       Audit of CFTC Financial Statements for Fiscal Year 2008. In FY 2002, Congress passed
       the Accountability of Tax Dollars Act. The Act requires the CFTC, along with numerous
       other Federal entities, to have its financial statements audited annually. To this end, the
       OIG has engaged a contractor to provide the audit effort required to enable the contractor
       to render an opinion on the Agency's financial statements for Fiscal Year 2008 in
       accordance with generally accepted auditing standards, Government Auditing Standards,
       and OMB Bulletin 01-02. (For additional details, see page 10.)

Current Reviews

       Review of Agency Use of Contractors. Over the past five fiscal years the Agency has
       increased its reliance on contractors to extend the capabilities of some CFTC employees
       and to replace others. The objectives of this review are to determine whether the Agency
       has effectively employed contractors to complement andreplace its staff and to present
       the Chairman with a complete picture ofthe Commission's use of contractors. (For
       additional details, see page 12.)

Completed Audits

         The following audits have been completed during this reporting period. (For additional
details, see the section on completed audits and reviews beginning on page 5.)

       Audit of CFTC Financial Statements for Fiscal Year 2007. In FY 2002, Congress passed
       the Accountability of Tax Dollars Act. The Act requires the CFTC,along with numerous
       other Federal entities, to have its financial statements audited annually. To this end, the
       OIG engaged a contractor to provide the audit effort required to enable the contractor to
       render an opinion on the Agency's financial statements for Fiscal Year 2007 in



                                                 1
       accordance with generally accepted auditing standards, Government Auditing Standards,
       and OMB Bulletin 01-02. (For additional details, see page 5.)

Completed Reviews

         The following reviews have been completed during this reporting period. (Fot additional
details, see the section oncbmpleted audits and reviews beginning on page 5.)

       Review of Agency Compliance with GPRA. The Government Performance and Results
       Act of 1993 (GPRA) requires federal agencies to develop strategic plans, prepare annual
       plans setting performance goals, and report annually on actual performance compared to
       goals. The first report was prepared in March 2000. The objective of this review is to
       determine how effectively the Commission is complying with GPRA's terms. This
       includes an examination of the performance measures devised by the Commission and
       the systems used for gathering the data to report on those performance measures.

        The OIG reviewed the Commission's FY 2007 Annual Performance Plan before it was
        submitted to Congress. The Reports Consolidation Act of 2000 authorizes the CFTC to
        provide financial and performance information in a more meaningful and useful format
        for Congress, the President, and the public, through publication ofthe Performance and
        Accountability Report (PAR). Reports required under GPRA are also included in the
        PAR, and the Office of the Inspector General also reviewed the Commission's FY 2007
      , PAR report prior to submission to OMB and Congress. Based upon those reviews, the
        Office of the Inspector General submitted suggestions regarding the PAR, and
        determined that the Commission has complied with GPRA's terms. (For additional
        details, see page 6.)

       Report of CFTC' s Management Challenges; The Reports Consolidation Act requires the
       Inspector General to summarize the most serious management and performance
       challenges facing the CFTC and to assess the Agency's progress in addressing those
       challenges, all for inclusion in the PAR. During this reporting period, the OIG examined
       the work of the CFTC over the past year, as well as market developments and significant
       events impacting the futures industry, in order to determine the Agency's most serious
       management and performance challenges. The OIG identified two potential management
       challenges: The Modernization of Electronic Market Surveillance and Expansion of
       CFTC Oversight into New Markets (For additional details, see page 7.)

       Update of the Review of the Need for a Los Angeles Office. The OIG report titled
       "Review of the Need for a Los Angeles Office" was completed in 2006. Because of
       budgetary constraints, the Chairman was not in a position to act on the recommendations
       in the report. In December, Congress increased the CFTC's budget for FY 2008. Also in
       December, the OIG received an inquiry from Congress regarding unresolved
       reCOmmendations. In light of the budget situation and the Congressional inquiry, the
       OIG updated the 2006 report and expanded the scope of its original review. (For
       additional details, see page 7.)




                                               2
INVESTIGATIONS

        The Inspector General Act of 1978, as amended, provides that the Inspector General may
receive and investigate complaints or information from the Commission's employees and others
concerning the possible existence of an activity constituting a violation of law, rules or
regulations, or mismanagement, abuse of authority~ or gross waste of funds, or a supstantial and
specific danger to the public health and safety.

        No investigations were pending as of the beginning of the reporting period, and the OIG
opened no investigations during the period. During this period the OIG did review investigative
leads submitted by individuals and organizations. (See the section on investigations beginning
on page 8.)

LEGISLATIVE AND REGULATORY REVIEWS

        The OIG reviews proposed ,and final CFTC regulation.s, legislation, and selected
exchange rules using the following basic criteria: whether the Agency: (1) has identified
specifically the problem(s) to be addressed by the proposal; (2) has defined through case study or
data analysis a clear link between the proposed solution and the identified problem(s); (3) has
specified clearly the means to effectively and efficiently enforce the proposal; (4) has assessed
the likely efficiency and effectiveness of alternative solutions; (5) can reasonably document that
the proposal will yield positive net benefits over the long term; and (6) has met the requirements
of the Regulatory Flexibility Act and the Paperwork Reduction Act.

        The Regulatory Flexibility Act requires the Agency to evaluate the impact of its
regulations on small entities. The Paperwork Reduction Act requires the Agency to manage
effectively and efficiently its information collections so that they are the least burdensome
necessary to achieve the stipulated objectives.

Legislative Activities

        The Inspector General continues to be involved in legislative activities, serving on the
legislative committee of the Inspector Generals. Congressional staffs were briefed about the
various IG issues, and the Inspector General responded to Congressional inquiries. (See the
section on legislative and regulatory reviews beginning on page 8.)



                              OIG RESPONSIBILITIES

       The Office of the Inspector General in the Commodity Futures Trading Commission was
created in accordance with the Inspector General Act of 1978 (P.L. 95-452), as amended by the
Inspector General Act Amendments of 1988 (P.L. 100-504). The OIG was established to create
an independent unit to:




                                                 3
       •   Promote economy, efficiency, and effectiveness in the administration of CFTC
           programs and operations and detect and prevent fraud, waste, and abuse in such
           programs and operations;

       •   Conduct and supervise audits and, where necessary, investigations relating to the
           administration of CFTC programs and operations;

       •   Review existing and proposed legislation, regulations, and exchange rules and make
           recommendations concerning their impact on the economy and efficiency of CFTC
           programs and operations or the prevention and detection of fraud and abuse; and

       •   Keep the Chainnan and Congress fully informed about any problems or deficiencies
           in the administration of CFTC programs and operations and provide
           recommendations for correction of these problems or deficiencies.

       Given that the CFTC ,does not have extensive contracts or grant making authority, the
OIG's efforts have been focused on the review oflegislative and regulatory proposals and the
monitoring of internal CFTC operations.



                                      OIG RESOURCES
        The OIG consists of the Inspector General, two professional staff members, and a
secretary. During the preceding reporting period one professional staff member retired and a
new professional staff member was hired and began work on June 11, 2007. The present
Inspector General assumed his position on October 7, 1990.

        The OIG, on December 4, 1989, signed a Memorandum of Understanding with the Office
of the General Counsel (OGC). This Memorandum details the procedures that are used to
provide the OIG with OGC legal services. Because the professional staff member who began in
June 2007 is an attorney, the OIG is not utilizing the 1989 Memorandum.



                  CFTC PROGRAMS AND OPERATIONS
       Congress created the Commodity Futures Trading Commission in 1974 as an
independent agency with the mandate to regulate commodity futures and options markets in the
United States. The Commission's mandate was renewed and/or expanded in 1978,1982, 1986,
1992, and 1995. In December 2000, the Commission was reauthorized by Congress and the
President through Fiscal Year 2005 with the passage of the Commodity Futures Modernization
Act of 2000 (CFMA). The Commission is currently working with the Administration and the
Congress on issues related to the reauthorization of the Commission.

       The CFMA transfonned the Commission from a front-line regulatory agency to an
oversight regulator. Although the Commission's approach to regulation has changed, the


                                                4
CFTC's mission has not. The CFTC continues to be responsible for fostering the economic
utility of futures markets by encouraging their competitiveness and efficiency, ensuring their
integrity, and protecting market participants against manipulation, abusive trade practices, and
fraud. Through effective oversight regulation, the CFTC enables the commodity futures markets
better to serve their vital function in the nation's economy -- providing a mechanism for price
discovery and a means of offsetting price risks.



                                 COMPLETED WORK

AUDITS.and REVIEWS

       The OIG is required to conduct, supervise and coordinate audits ofCFTC programs and
operations and to ensure that the audits are conducted in accordance with generally accepted
government auditing standards. The OIG is also required to recommend changes to existing and
proposed CFTC programs and operations to promote economy, efficiency, and effectiveness and
to prevent and detect fraud and abuse.

       The purpose of these audits is to ensure that:

       •     Funds have been expended in a manner consistent with related laws, regulations, and
             policies;

       •     Resources have been managed effectively and efficiently;

       •     Stipulated program objectives have been achieved; and

       •     Resources have been safeguarded.

       The following audit reports and reviews have been issued during the reporting period.

1.      Audit of CFTC Financial Statements for Fiscal Year 2007

Objective.

        In FY 2002, Congress passed the Accountability of Tax Dollars Act. The Act requires
the CFTC, along with numerous other Federal entities, to have its financial statements audited
annually. To this end, the OIG engaged a contractor to provide the audit effort required to
enable the contractor to render an opinion on the Agency's financial statements for Fiscal Year
2007 in accordance with generally accepted auditing standards, Government Auditing Standards,
and OMB Bulletin 01-02.




                                                 5
Status.

        An unqualified independent auditor's report was issued on November 15,2007. The
independent auditor's report found that the CFTC's financial statements as of September 30,
2007 are presented fairly, in all material respects, in conformitywith U.S. generally accepted
accounting principles. However, with respect to internal control over financial reporting, one
significartt deficiency was identified: Improvement is needed over recording accruals. However,
the independent auditor did not consider the significant deficiency above to be a material
weakness. Management concurred with this finding and agreed with the recommendations.

        The IG Act and the Federal Financial Management Improvement Act of 1996 (FFMIA)
require the Inspectors General of certain agencies to report "instances and reasons" when the
Agency has not met intermediate target dates established in a remediation plan to bring the
agency's financial management system into substantial compliance with the Act. CFTC is not
subject to the requirements ofthe FFMIA; however, it voluntarily seeks to comply with its
requirements. During this reporting period, there were no events giving rise to a duty to report
under FFMIA.


2.        Review of Agency Compliance with GPRA

Objective.

       The GPRA requires federal agencies to develop strategic plans, prepare annual plans
setting performance goals, and report annually on actual performance compared to goals. The
Reports Consolidation Act of 2000 authorized agencies to provide financial and performance
information in a more meaningful and useful format for Congress, the President, and the public,
through publication of the PAR. Beginning in FY 2004, in response to an OMB directive, the
Agency began submitting an annual PAR. The PAR includes reports required under the GPRA.

       The objective of this review is to determine how effectively the Commission is
complying with GPRA's terms. This includes an examination of the performance measures
devised by the Commission and the systems used for gathering the data to report on those
performance measures.

Status.

        The OIG has been involved with the review of Agency compliance with the GPRA from
its inception. In response to Congressional interest, OIG consulted with and advised the
Commission's operating divisions concerning GPRA requirements. The Office of the Inspector
General reviewed the Commission's FY 2001 through FY 2007 Annual Performance Plans
required under GPRA before each was submitted to Congress. The OIG will continue to review
the Annual Performance Plan that is included in the annual budget estimate which is submitted to
the Office of Management and Budget.




                                                6
        Prior to the adoption of the Reports Consolidation Act, from FY 1999 through FY 2003
Congress required the Agency to submit a report on the Agency's performance results by
strategic goal. The OIG selectively reviewed these reports after they were submitted to
Congress.

       In FY 2004 the Agency began issuing a yearly PAR, and the OIG has reviewed the
Commission's PAR reports each year prior to submission to Congress, and submitted
suggestions. Based upon those reviews, the OIGhas determined that the Commission has
complied with GPRA's terms.

3.        Report of CFTC's Management Challenges

Objective.

        In addition to authorizing the agencies to provide financial and performance information
 in a more meaningful and useful format for Congress, the Reports Consolidation Act of 2000
 also required the Inspector General to summarize the most serious management and
 performance challenges facing the CFTC and to assess the Agency's progress in addressing
 those challenges for inclusion in the PAR.

Status.

        The OIG prepared the required summary of the Agency's most serious management and
performance challenges in accordance with the Reports Consolidation Act of 2000 for inclusion
in the FY 2007 PAR. The OIG concluded that the Agency had adequately addressed the most
serious management and performance challenges identified by the Inspector General in FY 2006.
Using information gathered during review of the draft FY 2007 PAR, as well as market
developments and significant events impacting the futures industry over the past fiscal year, the
Inspector General prepared its annual Assessment of the most serious management challenges
facing the CFTC. In November 2007 the OIG submitted the report to the Agency for inclusion
in the PAR, and the Agency transmitted the PAR to OMB and Congress. The OIG identified
two potential management challenges: The Modernization of Electronic Market Surveillance and
Expansion of CFTC Oversight into New Markets

       For FY 2008, the OIG will review the CFTC's FY 2008 PAR and prepare its annual
assessment of the most serious management challenges facing the CFTC.

4.        Update of the Review of the Need for a Los Angeles Office.

Objective.

      Our report titled "Review ofthe Need for a Los Angeles Office" was completed in 2006.
Because of budgetary constraints, the Chairman was not in a position to act on the
recommendations in the report. In December, Congress increased the CFTC's budget for FY
2008. Also in December, the OIG received an inquiry from Congress regarding unresolved
recommendations. In light of the budget situation and the Congressional inquiry, the OIG



                                                7
updated the 2006 report and expanded the scope of its original review. Our objective was to
obtain inforITlation regarding registration and compliance trends inthe Western States, as well as
information regarding opportunities for cooperative enforcement in the Los Angeles Area and
the views of former CFTC employees.

Status.

        The Office of Inspector General issued this report on March 12, 2008. The report
reiterated the reconunendation in the 2006 Report to reopen the Los Angeles Office, and was
bolstered by information obtained through expanded inquiry.

INVESTIGATIONS

        The Inspector General Act of 1978, as amended, provides that the Inspector General may
receive and investigate complaints or information from the Commission's employees concerning
the possible existence of an activity constituting a violation of law, rules or regulations, or
mismanagement, abuse of authority, or gross waste of funds, or a substantial and specific danger
to the public health and safety.

        No investigations were pending as ofthe beginning of the reporting period, and no
investigations were opened during the period, although several leads were received and none
warranted formal investigation at this time.


LEGISLATIVE AND REGULATORY REVIEWS

        As specified in Section 4(a)(2) of the Inspector General Act of 1978, the OIG reviews the
impact of existing and proposed legislation and regulations on CFTC programs and operations
and makes recommendations regarding more effective or efficient alternatives or protections
against fraud and abuse. The OIG also reviews selected exchange rule proposals and changes.

      The OIG has notified the responsible Divisions as to any concerns with draft and final
documents relating to legislation, rules or investigations. Formal comments were not filed with
the Commission.

Rule Reviews Initiated In Previous Reporting Periods

        There were no rule reviews initiated in previous reporting periods which were continued
into this reporting period.

Rule Reviews In.itiated This Reporting Period

        The OIG has reviewed the numerous rules required by the CFMA. The CFMA altered
the relationship of the Conunission to the futures industry in many regards and the rules sought
to reflect this change.



                                                 8
Legislative Activities

       The mspector General continues to be involved in legislative activities and contact has
been made with congressional staff on various IG issues. In addition, the Inspector General has
responded to Congressional inquiries.

              AUDIT REPORTS OVER SIX MONTHS OLD


CORRECTIVE ACTION NOT COMPLETED

       There were no instances of audit reports over six months old where corrective action had
not been completed.

CORRECTIVE ACTION COMPLETED

        There were no instances of reports issued before the commencement of the reporting
period for which corrective action had been completed by the end ofthe reporting period.

MANAGEMENT DECISION NOT MADE

       There is one instance of a report issued before the commencement of the reporting period
for which a management decision had not been made by the end of the reporting period. The
Chairman is continuing to examine the issue.



                SUMMARY OF MATTERS REFERRED TO
                   PROSECUTIVE AUTHORITIES

       No matters were referred to prosecutive authorities during the reporting period.



                SUMMARY OF EACH REPORT MADE TO
                      THE AGENCY HEAD

        No reports were made to the Agency head under section 6(b)(2) concerning information
or assistance unreasonably refused or not provided.




                                                9
                      REVISED MANAGEMENT DECISIONS

           No management decisions were revised during the reporting period.



                    INSPECTOR GENERAL DISAGREEMENT

      The Inspector General does not disagree with any management decisions on DIG
recommendations.



                                     CURRENT AUDITS

           The audit agenda and priorities for the DIG are detennined based on the following
factors:

           •   Statutory and regulatory requirements;

           •   Adequacy of internal control systems as indicated by vulnerability assessments and
               internal control reviews recommended by DMB Circular A-123;

           •   Changes in the program conditions or particular vulnerability of the organization,
               program, activity, or function to problems or deficiencies;

           •   Current and potential dollar magnitude and likely benefits of a review on the
               efficiency or effectiveness of CFTC programs and operations;

           •   Management priorities and improvements that may be possible;

           •   Results of audits of CFTC programs and operations by other Federal agencies; and

           •   Availability of audit resources and the potential opportunity costs to the Agency.

       The audit agenda - including reviews and progreSs summaries for each audit and review,
which has not yet been completed - is summarized below. New agenda items periodically will
be added, as appropriate, along with a description ofthe audit objective for each.




                                                    10
1.     Audit of CFTC Financial Statements for Fiscal Year 2008

Objectives.

         In FY 2002, Congress passed the Accountability of Tax Dollars Act. The Act requires
the CFTC, along with nUlllerous other Federal entities, to have its financial statements audited
annually. To this end, the OIG has engaged a contractor to provide the audit effort required to
en.able the contractor to ren.der an opinion on the Agency's finanCial statements for Fiscal Year
2008 in accordance with generally accepted auditing standards, Government Auditing Standards,
alidOMB Bulletin 01-02.

The specific objectives of this audit are to detennine whether:

       (1) The financial statements present fairly the financial position of the Commodity
       Futures Trading Commission in accordance with generally accepted accounting
       principles (GAAP) as promulgated by the Federal Accounting Standards Advisory Board
       (FASAB). The six financial statements, along with all corresponding notes to be audited
       include: (a) Balance Sheet; (b) Statement of Net Cost; (c) Statement of Changes in Net
       Position; (d) Statement of Budgetary Resources; (e) Statement of Financing; and (f)
       Statement of Custodial Activity.

       (2) Management's assertions about the effectiveness ofits internal controls for achieving
       internal control objectives described in AU Section 319 and the Federal Managers
       Financial Integrity Act (FMFIA) are fairly stated in all material respects. The contractor
       shall make this detennination in part by obtaining an understanding of the internal control
       policies and procedures and assessing the level of control risk relevant to all significant
       cycles, classes oftransactions, and account balances. For those significant control
       policies and procedures that have been properly designed and placed in operation, the
       contractor shall perfonn sufficient tests to provide reasonable assurance as to whether the
       controls are effective and working as designed.

       The independent public accountant (IPA) wi11limit its internal control testing to those
       controls necessary to achieve the objectives described in OMB Bulletin 01-02. Further,
       the IPA is not required to test all internal controls relevant to operating objectives as
       broadly defined by the FMFIA, such as those controls relevant to achieving efficient
       operations.

       With respect to internal controls related to performance measures reported in the
       accountability report, the IPA will obtain an understanding of the design of significant
       internal controls relating to the existence and completeness assertions, as required by
       OMB Bulletin 01-02. The procedures are not required to provide assurance on internal
       controls over reported performance measures.

       (3) The Agency has complied with selected provisions of laws and regulations identified
       by OMB Bulletin 01-02 or the Inspector General, noncompliance with which could have
       a direct and material effect on the determination of financial statement amounts. The IPA



                                                11
          will limit its tests of compliance to these provisions and need not test compliance with all
          laws and regulations applicable to the CFTC.

          (4) The information in the "Overview of the Reporting Entity" is consistent in content
          and presentation with the information in the principal statements and the related notes
          consistent with Statements on Auditing Standards (SAS) No.8, Other Information in
          Documents Containing Audited Financial Statements.

Status.

       An independent public accounting firm was first selected on January 15, 2004 to
complete the Fiscal Year 2004 CFTC Financial Statement Audit. Their audit report was
delivered on November 18,2004. The same firm under an option year of the contract rendered
an opinion on November 14, 2005 on the Agency's financial statements for Fiscal Year 2005, on
November 15,2006 performed the same tasks on the Fiscal Year 2006 financial statements, and
on November 15, 2007 issued its independent audit report for Fiscal Year 2007.

      On March 10, 2008, the Fiscal Year 2008 audit began with a meeting with senior Agency
managers. The final audit report is to be delivered to the Office of the Inspector General on
November 9, 2008.

2.        Review of Agency Use of Contractors.

Objective.

         Over the past five fiscal years the Agency has increased its reliance on contractors to
extend the capabilities of some CFTC employees and to replace others. The objectives of this
review areto determine whether the Agency has effectively employed contractors to complement
its staff and replac'e others and to present the Chairman with a complete picture of the
Commission's use of contractors.

Status.

       The Office of Financial Management has supplied the OIG with extensive data on
contracts employed by CFTC during FY 2002 to 2007. The OIG has reviewed and analyzed this
data and attempted to determine whether the Agency has effectively employed contractors to
complement and replace its staff. The OIG has sought to develop a complete picture of the
Commission's use of contractors. During this reporting period, the OIG completed interviews,
obtained further data on Agency contract employees, and began the process of formulating
conclusions and recommendations and drafting the report.

                                         GAO LIAISON

       The OIG is charged with providing policy direction for, and conducting, supervising, and
coordinating audits and investigations relating to CFTC programs and operations. In addition,
the OIG is required to recommend policies for, and conduct, supervise, and coordinate with other


                                                   12
Federal agencies, state and local governmental agencies, and nongovernmental entities, audits,
investigations, and evaluations regarding the economy, efficieilcy, and effectiveness of CFTC
programs and operations. GAO also conducts audits of CFTC activities, and OIG plans its audits
so as not to duplicate GAO's efforts.



                          STRATEGIC PLAN
                             FOR THE
                 OFFICE OF THE INSPECTOR GENERAL

INTRODUCTION

       The CFTC DIG was created in accordance with the Inspector General Act of 1978 (P.L.
95-452), as amended by the Inspector General Act Amendments of 1988 (P.L. 100-504). The
OIG was established to create an independent unit to:

       •   Promote economy, efficiency, and effectiveness in the administration of CFTC
           programs and operations and detect and prevent fraud, waste, and abuse in such
           programs and operations;

       •   Conduct and supervise audits and investigations relating to the administration of
           CFTC programs and operations;

       •   Review existing and proposed legislation, regulations, and exchange rules and make
           recommendations concerning their impact on the economy and efficiency ofCFTC
           programs and operations or the prevention and detection of fraud and abuse; and

       •   Keep the Chainnan and Congress fully informed about any problems or deficiencies
           in the administration of CFTC programs and operations and provide
           recommendations for correction of these problems or deficiencies.

        Accordingly, the DIG has established three programs to carry out its responsibilities:
audit, investigation, and legislative and regulatory review. A summary of those programs
follows.

AUDIT and REVIEW

        The primary objectives of the OIG are to promote long-term efficiency and effectiveness
in the administration and operation of the Commission and to protect against fraud and abuse.

         During the next reporting period, in addition to the mandatory audits, OIG will complete
its review of the Agency's use of contractors. This review is motivated by and should respond to
concerns expressed by some Agency employees regarding the growth of contractor employee use
by the Agency, including concerns that Agency employees could perform the same tasks at less



                                                13
cost. Our review will address these concerns and provide the Commission with an overview of
the evolution of the use of contractors by the Agency.

        In addition, the OIG will work on the development of new audits that are timely and
useful to Agency administrative operations. Looking to the longer term, the key to effectively
and efficiently managing the CFTC is information. Top level managers and decision makers
require a steady stream of organized data on the effects of their policy decisions and resource
allocations on the operations ofthe Commission. Once having made the decision to change
resource levels or policy, managers must receive accurate and timely reports of the operational
effects of their decision so they can determine if the change is in the direction and of the
magnitude predicted. In the absence of such information, top level managers cannot adequately
perform their jobs.

        A number of obstacles to acquiring and transmitting the desired information to decision
makers may exist in some programs. Principal among them is the Commission's apparent
difficulty in many instances in tracking the progress of a particular action across organizational
lines within the Commission.

        A related problem is the difficulty the Commission has in associating resources devoted
to an activity with the results of that activity. The Commission does a good job of tracking
resources expended. It can determine how much staff time and material at what cost was spent
in a particular activity. Some Commission organizations can even associate costs with particular
projects. What a program manager may have great difficulty doing, however, is telling a
decision maker that, for a specific level or increase in resources, the program manager will
deliver a specific level of increased output. Without this information from all programs
competing for limited resources, decision makers cannot make reasoned resource allocation
judgments. Decision makers are forced to rely on intuition and anecdotal evidence.

        To increase the efficiency and the effectiveness of the management of CFTC programs
and operations, the OIG would like to, in addition to conducting mandatory audits, concentrate
its audit resources on the identification of information voids and the lack of continuity in the
flow of information across organizational lines from the beginning of a process until its
conclusion. The OIG will recommend the implementation of any system improvements where
the benefits of implementing the change exceed the costs.

       In addition to our efforts to bring technology to bear on the information requirements of
the Commission, the OIG has been following the Commission's development of measures and
systems of measurement in response to the GPRA. As the Commission implements GPRA, the
OIG will devote resources to monitoring Agency performance to insure that the data is
accurately gathered and that the measures reported are the best available for demonstrating
program performance.

INVESTIGATIONS

        The Inspector General Act of 1978, as amended, provides that the Inspector General may
receive and investigate complaints or information from the Commission's employees concerning



                                                 14
the possible existence of an activity constituting a violation of law, rules or regulations, or
mismanagement, gross waste of funds, abuse of authority or a substantial and specific danger to
the public health and safety.

        The GIG has to date conducted only a reactive investigative program chiefly relying on
unsolicited employee complaints as the source of investigative leads. This reactive program has
resulted in only a handful ofinvestigations per year. This strategy was followed because the
GIG believed that an independent regulatory agency such as the CFTC, without grant money or
substantial contracts to award, was not likely to generate a substantial investigative workload.

        To insure that employee complaints could easily reach the GIG, a 24-hour hotline was
established in February 1993 to receive complaints. The hotline's existence is publicized on the
back cover of this semiannual report..

       Because of the reactive nature of the GIG's investigative program, no investigative
agenda has been established.

LEGISLATIVE AND REGULATORY REVIEW

        Because ofthe importance of this activity in an economic regulatory agency, the GIG
reviews proposed and final CFTC regulations, legislation, and selected exchange rules using six
basic criteria: Whether the Agency: (1) has identified specifically the problem(s) to be addressed
by the proposal; (2) has defined through case study or data analysis a clear link between the
proposed solutjon and the identified problem(s); (3) has specified clearly the means to
effectively and efficiently enforce the proposal; (4) has assessed the likely efficiency and
effectiveness of alternative solutions; (5) can reasonably document that the proposal will yield
positive net benefits over the long term; and (6) has met the requirements ofthe Regulatory
Flexibility Act and the Paperwork Reduction Act.

        The Regulatory Flexibility Act requires the Agency to evaluate the impact of its
regulations on small entities. The Paperwork Reduction Act requires the Agency to manage
effectively and efficiently its information collections so that they are the least burdensome
necessary to achieve the stipulated objectives.

        Because the GIG does not initiate legislation or, generally, regulations, the OIG
legislative and regulatory review program is reactive to the legislative and regulatory proposals
developed by others. Accordingly, no independent legislative and regulatory review agenda has
been established.




                                                15
                                       AUDIT AGENDA

ANNUAL AUDITS

       The following audits are perfonned on·an annual basis.

Audit of Compliance with the Federal Managers' Financial Integrity Act

       In support of OMB Circular A-123 (Revised), the Inspector General will evaluate,
provide technical assistance, and advise the Agency head as to whether the Agency's review and
evaluation process was conducted in accordance with the circular's requirements.

Evaluation of the CFTC Information Security Program and Practices, FISMA

      The Federal Information Security Management Act (FISMA) requires the Inspector
General or his designee to perform annual independent evaluations of the information security
program and practices of the Agency.

Audit of CFTC Financial Statements

        In FY 2002, Congress passed the Accountability of Tax Dollars Act. The Act requires
the CFTC, along with numerous other Federal entities, to have its financial statements audited
annually. To this end, the OIG has engaged a contractor to provide the audit effort required to
enable the contractor to render an opinion on the Agency's financial statements for each fiscal
year in accordance with generally accepted auditing standards, Government Auditing Standards,
and OMB Bulletin 01-02.

OTHER AUDITS

        The OIG intends to focus the balance of its audit resources on the design and
implementation of audits that are timely and useful to Agency administrative operations.
Looking to the longer term, the OIG intends to develop and implement audits designed to ensure
that the Chairman, the Commissioners, and program managers have timely, useful information
on the progress ofthe CFTC's programs in meeting their goals and objectives. For example,
emphasis will be placed on determining whether all managerial levels engaged in a process can
track the progress of their various programs. The tracking systems required in many, though not
all, programs will cross formal organizational lines.

        These audits will entail a cataloging and description of all of the manual and automated
systems used by a program to gather information on its use of resources, the results of the
devotion of those resources (including definitions of measurements of accomplishment), andthe
reporting of results and associated costs to the upper level managers in the Division and to the
Chairman and the Commissioners. The cataloging of these decision support systems will be
followed by an assessment of whether all concerned officials are timely receiving the
information they require to efficiently allocate resources to those uses which best accomplish the



                                                16
priorities of the Commission. If any elements are lacking in the information systems, they will
be identified and improvements will berecommended if they can be implemented in a
costlbeneficial manner.

        Ifrecommendations are successfully implemented, the proposed systems should allow
the Chairman, the Commissioners, and concerned program managers to track the progress of a
particular program across organizational lines and to quickly determine the effects, if any, of
changes in policy, procedure, or staffing.

      The first step in accomplishing this goal will be to concentrate on documenting, and
recommending the improvement and/or development of tracking systems in every program
element throughout the Commission.

       In addition to our focus on facilitating the development of an efficient flow of
information throughout the Agency, the OIG will devote resources to the review of the
management and operation of the Agency and compliance with Congressional mandates.

RESOURCES REQUIRED

        The OIG estimates that approximately one staff year of effort will be devoted over each
of the next five years to performance and compliance audits and reviews of the Agency's
operations. The "Annual Audits" are expected to consume approximately one-half staff year per
year.



                        CONTACTING THE OFFICE OF THE
                            INSPECTOR GENERAL

        The OIG is located at Three Lafayette Centre 1155 21st Street, N.W., Washington, D.C.
20581. The telephone number is (202)418-5110. The facsimile number is (202)418-5522. The
hotline number is (202)418-5510. Regular business hours are between 8:30 AM and 5:00 PM,
Monday through Friday, except Federal holidays.




                                               17
                                              Table 1
                                 Reports Issued with Questioned Costs
                                  (October 1, 2007 - March 31, 2008)

                                                                        Dollar Value
                                                                         Thousands
                                                     Number      Questioned Unsupported

A.   For which no management decision has
     beertmade by the commencement ofthe
     reporting period                                  ·0               o        o
B.   Which were issued during the reporting
     period                                             o               o        o
     Subtotals (A+ B)                                   o               o        o
C.   For which a management decision was
     made during the reporting period                   o               o        o
     (I)      dollar value of
              disallowed costs                          o               o        o
     (ii)     dollar value of costs not
              disallowed                                o               o        o
D.   For which no management decision
     has been made by the end ofthe
     reporting period                                   o               o        o




                                              18
                                              Table 2
                             Reports Issued with Recommendations
                                That Funds be Put to Better Use
                              (October 1, 2007- March 31, 2008)


                                                            Dollar Value
                                                   Number    Thousands

A.   For which no management decision has
     been made by the commencement of the
     reporting period                                o             o
B.   Which were issued during the reporting
     period                                          o             o
     Subtotals (A +B)                                o             o
C.   For which a management decision was
     made during the reporting period                o             o
     (i)      dollar value of
              recommendations that
              were agreed to by management
                                                     o             o
     ( ii )   dollar value of
              recommendations that
              were not agreed to by
              management                             o             o
D.   For which no management decision
     has been made by the end of the
     reporting period                                o             o




                                              19
        The Inspector General
        needs your help to
        assure the integrity of
        CFTC's programs.



 Report FRAUD, WASTE
  or ABUSE to the
'INSPECTOR GENERAL

 HOTLINE
(202)418-5510
     Office of the Inspector General
  Commodity Futures Trading Commission
          1155 21 ST Street, N.W.
         Washington, D.C. 20581
